                                          U.S. SMAll BUSINESS ADMINISTRATION 

                                               OFFICE OF INSPECfOR GENERAL 

                                                WASHINGTON, D.C. 20416 





                                                                      TRANSMITTAL MEMORANDUM
                                                                                 Report No. 12-02



DATE:             NOVEMBER 14, 2011


To:


FROM:
                 JONATHAN I. CARVER
                 Chief Financial OffiCn

                 JOHN K. NEEDHAM      Lv
                                         L·
                                          I)
                 Assistant Inspect    General for Auditing

SUBJECf:          Irrdeperrdent Au ·to·' Report on the SBA's FY 2011 Financial Statements

We contracted with the independent public accounting firm, KPMG LlP, to audit the U.S. Small
Business Administration's consolidated financial statements as of September 30, 2011, and for
the years then ended. The contract required that the audits be conducted in accordance with
Generally Accepted Government Auditinll Standards; the Office of Management and Budget
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended; and the
U.5. Government Accountability Office's Financial Audit Manual and Federal Information
System Controls Audit Manual. This audit is an annual requirement ofthe Chief Financial
OfficersAct of 1990.

The results of KPMG lLP's audits are presented in the attached report. The report includes an
opinion on SBA's financial statements, internal control over financial reporting, and compliance
and other matters that have a direct and material effect on the financial statements. KPMG
LLP issued an unqualified opinion on SBA's fiscal year 2011 consolidated financial statements.
In summary, KPMG LLP found that:

      • 	 The financial statements were fairly presented, in all material aspects, in conformity
           with U.S. generally accepted accounting principles.
      .. There were no material weaknesses in internal control.
      • . There is a significant deficiency related to SBA's information technology security
           controls, which is a repeat condition.
      ". 	 There is one instance of noncompliance with laws and regulations related to. the Debt
           Collection Improvement Act of 1996, which is also a repeat condition.

The report also includes one other matter related to possible violations of the Federal
Acquisition Regulation's documentation retention requirements. Details regarding the
auditor's conclusions are included in the Compliance and Other Matters Section of the
Independent Auditors' Report. Within 30 days of this report, KPMG expects to issue a separate
letter to management regarding other less significant matters that came to its attention during
the audit.
We reviewed a copy of KPMG LLP's report and related documentation and made necessary
inquiries of their respective representatives. Our review was not intended to enable us to
express, and we do not express, an opinion on the SBA's financial statements, KPMG LLP's
conclusions about the effectiveness of internal control, or its conclusions about SBA's
compliance with laws and regulations. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with Generally Accepted Government
Auditing Standards.

We provided a draft of KPMG LLP's report to SBA's Chief Financial Officer who concurred with
its findings and recommendations and agreed to implement the recommendations. The Chief
Financial Officer's comments are attached as Exhibit IV to this report.

We appreciate the coopenition and assistance of the SBA and KPMG LLP. Should you or your
staff have any questions, please contact me at (202) 205·7390 or Jeffrey R. Brindle, Director,
Information Technology and Financial Management Group at (202) 205·7490.

Attachment




                                               2

                               KPMG LLP
                               2001 M Street. NW
                               Washington, DC 20036~3389




                                        Independent Auditors' Report


Office of Inspector General,
U.S. Small Business Administration:

We have audited the accompanying consolidated balance sheets ofthe U.S. Small Business Administration
(SBA) as of September 30, 2011 and 2010, and the related consolidated statements of net cost and changes
in net position, and combined. statements of budgetary resources (hereinafter referred to as "consolidated
financial statements") for the years then ended. The objective of our audits was to express an opinion on
the fair presentation of these consolidated financial statements. In connection with our Fiscal Year (FY)
2011 audit, we also considered the SBA's internal control over financial reporting and tested the SBA's
compliance with certain provisions of applicable laws, regulations, contracts, and grant agreements that
could have a direct and material effect on these consolidated financial statements.

Summary
As stated in our 0pJl1IOn on the consolidated financial statements, we concluded that the SBA's
consolidated financial statements as of and for the years ended September 30,2011 and 2010, are presented
fairly, in all material respects, in conformity with U.S. generally accepted accounting principles.

Our consideration of internal control over financial reporting resulted in identifYing certain deficiencies
that we consider to be significant deficiencies, as defined in the Internal Control Over Financial Reporting
Section of this report, as follows:

        Improvement Needed in Information Technology Security Controls

We did not identify any deficiencies in internal control over financial reporting that we consider to be
material weaknesses as defined in the Internal Control Over Financial Reporting Section of this report.

The results of our tests of compliance with certain provisions of laws, regulations, contracts, and grant
agreements disclosed one instance of noncompliance and one other matter that are required to be reported
under Government Auditing Standards, issued by the Comptroller General of the United States, and Office
of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial
Statements, as amended.

        Noncompliance with the Debt Collection Improvement Act ofI 996

The following sections discuss our opinion on the SBA's consolidated financial statements; our
consideration of the SBA's internal control over financial reporting; our tests of the SBA's compliance
with certain provisions of applicable laws, regulations, contracts, and grant agreements; and management's
and our responsibilities.

Opinion on the Financial Statements
We have audited the accompanying consolidated balance sheets of the SBA as of September 30, 2011 and
2010, and the related consolidated statements of net cost and changes in net position, and the combined
statements of budgetary resources for the years then ended.


                               KPMG LLP is a Delaware limiled liabliity parlnership,
                               the U.S, member firm of KPMG Intemational Cooperative
                               ("KPMG International'). a Swiss entity.
u.s. Small Business Administration
November 14,2011
Page 2 of 4


In our opmlOn, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the SBA as of September 30, 2011 and 2010, and its net costs, changes in
net position, and budgetary resources for tbe years then ended, in conformity with U.S. generally accepted
accounting principles.

The information in the Management's Discussion and Analysis, Required Supplementary Information, and
Required Supplement31Y Stewardship Information sections is not a required part of the consolidated
financial statements, but is supplementary information required by U.S. generally accepted accounting
principles. We have applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of this information. However, we did
not audit this information and, accordingly, we express no opinion on it.

The information in the Other Accompanying Information section is presented for purposes of additional
analysis and is not required as part of the consolidated financial statements. This information has not been
subjected to auditing procedures and, accordingly, we express no opinion on it.

Internal Control Over Financial Reporting
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
tbe entity's financial statements will not be prevented, or detected and corrected, on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
Responsibilities Section of this report and was not designed to identify all deficiencies in internal control
over financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our
FY 2011 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above. However, we identified a deficiency in internal
control over financial reporting described in Exhibit I that we consider to be significant deficiency in
internal control over financial reporting. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe th311 a material weakness, yet important enough to merit
attention by those charged with governance.

Exhibit II presents the status of the prior year significant deficiency.

We noted certain additional matters that we have reported to management of the SBA in a separate letter
dated November 14,2011.

Compliance and Other Matters
The results of certain of our tests of compliance as described in the Responsibilities Section of this report,
exclusive of those referred to in the Federal Financial Management Improvement Act of 1996 (FFMIA),
disclosed one instance of noncompliance and one other matter that are required to be reported herein under
Government Auditing Standards or OMB Bulletin No. 07-04, and are described below.

Debt Collection Improvement Act of 1996 (DCIA). During our testwork over loan charge-offs, we noted
the SBA did not refer obligors to the U.S. Department of Treasury (Treasury) for offset or cross-servicing,
in accordance with DeIA. Specifically, we noted the SBA did not refer obligors (eligible principal
borrowers, co-borrowers, and/or guarantors) associated with 504 delinquent Disaster Assistance loans to
the Treasury for offset or cross-servicing at time of charge-off. We also noted in the 7(a), 504, and Disaster
programs more than 5,000 eligible co-borrowers and guarantors were not referred for offset or cross­
u.s. Small Business Administration
November 14, 2011
Page 3 of4


servicing, in conjunction with the principal borrower at time of loan charge-off. In both conditions, the
obligors were not referred to the Treasury for collection during the period under review due to systemic
problems with the legacy mainframe system utilized by the SBA to facilitate the referral process.
Specifically, certain outdated system edits in the SBA's referral protocol prevented certain loans in
charged-off status from being transferred to the Treasury for collection. Also, programmers in the Office of
the Chief Information Officer modified the system code (referral protocol) but did not test the program
changes during the development phase prior to implementing the changes in production. We noted during
the fourth quarter of FY 2011 that the Office of the Chief Information Officer was in the process of
implementing actions to address these deficiencies which led to the noncompliance with the DCIA. Exhibit
III presents the status of the prior year noncompliance finding, which was also related to DCIA.

The results of our other tests of compliance as described in the Responsibilities Section of this report,
exclusive of those referred to in FFMIA, disclosed no instances of noncompliance and one other matter that
is required to be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

A matter has been identified that may be a violation of the Federal Acquisition Regulation documentation
retention requirements. This matter is currently under review by SBA management and the Office of
Inspector General. The outcome of this matter is not presently known.

The results of our tests of FFMIA disclosed no instances in which the SBA's financial management
systems did not substantially comply with the (1) Federal financial management systems requirements, (2)
applicable Federal accounting standards, and (3) the United States Goverrunent Standard General Ledger at
the transaction level.

                                                *******
Responsibilities
Management's Responsibilities. Management is responsible for the consolidated financial statements;
establishing and maintaining effective internal control; and complying with laws, regulations, contracts,
and grant agreements applicable to the SBA.

Auditors' Responsibilities. Our responsibility is to express an op1111On on the FY 2011 and 2010
consolidated financial statements of the SBA based on our audits. We conducted our audits in accordance
with auditing standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States; and OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we
plan and perform the audits to obtain reasonable assurance about whether the consolidated financial
statements are free of material misstatement. An audit includes consideration of internal control over
financial reporting as a basis for designing audit procedures that are appropriate in the circumstances, but
not for the purpose of expressing an opinion on the effectiveness of the SBA's internal control over
financial reporting. Accordingly, we express no such opinion.

An audit also includes:

•	    Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
      financial statements;
•	    Assessing the accounting principles used and significant estimates made by management; and
•	    Evaluating the overall consolidated financial statement presentation.
We believe that our audits provide a reasonable basis for our opinion.
u.s. Small Business Administration
November 14, 20 II
Page 4 of 4


In planning and performing our FY 20 II audit, we considered the SBA' s internal control over financial
reporting by obtaining an understanding of the SBA's internal control, determining whether internal
controls had been placed in operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the consolidated financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the SBA's internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of the
SBA's internal control over financial reporting. We did not test all controls relevant to operating objectives
as broadly defined by the Federal Managers' Financial Integrity Act of1982.

As part of obtaining reasonable assurance about whether the SBA' s FY 20 II consolidated financial
statements are free of material misstatement, we performed tests of the SBA's compliance with certain
provisions of laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of the consolidated financial statement amounts, and certain
provisions of other laws and regulations specified in OMB Bulletin No. 07-04, including the provisions
referred to in Section 803(a) of FFMlA. We limited our tests of compliance to the provisions described in
the preceding sentence, and we did not test compliance with all laws, regulations, contracts, and grant
agreements applicable to the SBA. However, providing an opinion on compliance with laws, regulations,
contracts, and grant agreements was not an objective of our audit and, accordingly, we do not express such
an opinion.



SBA's response to the findings identified in our audit is presented in Exhibit IV. We did not audit SBA's
response and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of SBA's management, SBA's Office of
Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not
intended to be and should not be used by anyone other than these specified parties.




November 14,2011
                                                                                                    Exhibit I
                                   u.s. Small Business Administration
                                           Significant Deficiency


The significant deficiency identified for the year ended Septemher 30, 2011, is summarized below:

Improvement Needed in Information Technology Security Controls

During the Fiscal Year (FY) 2010 financial statement audit, we identified 20 information technology (IT)
control findings and recommended many corresponding corrective actions. During the FY 2011 financial
statement audit, we found that the U.S. Small Business Administration (SBA) implemented corrective
actions to substantially remediate 10 of the 20 findings; however, we also identified 8 new IT control
findings. Therefore, SBA's IT control enviromnent continues to require improvement. The FY 2011 IT
control deficiencies fall within the control areas of security access, including configuration and patch
management, segregation of duties, and contingency planning. We are not providing details in this repmi
on the specific deficiencies due to sensitivity considerations, but we have provided the details in a separate
report to SBA management. Exhibit II of our report discloses the status of prior year IT findings.

Security Access Controls.

Integral to an organization's security program management efforts, system security access controls should
provide reasonable assurance that IT resources, such as data files, application programs, and IT-related
facilities/equipment, are protected against unauthorized modification, disclosure, loss, or impairment.

A summary of the security access control deficiencies we identified during the FY 20 I I SBA financial
statement audit follows:
• 	 We identified several high- and medium-risk security vulnerabilities affecting various financial
    systems. We provided the detailed vulnerabilities to SBA management.
• 	 We identified weaknesses in network access controls and one financial system.
• 	 SBA was unable to provide evidence that security incidents are analyzed, validated, and resolved.
• 	 Physical access control procedures can be improved for a financial system hosted by an SBA service
    provider. In addition, access to the service provider data center can be improved.
• 	 Several users have unnecessary access to one SBA financial subsystem.
• 	 User accounts are not reviewed in accordance with SBA policy for five of the seven systems we
    reviewed.
• 	 There are weak controls over the monitoring and review of audit logs for two of the seven systems we
    reviewed.

Recommendation - Security Access Controls:

We recommend that the Chieflnformation Officer (CIa) coordinate with SBA program offices to:

1. 	 Enhance security vulnerability management processes. Specifically, SBA should: (a) redistribute
    procedures and train employees on the process for reviewing and mitigating security vulnerabilities,
    (b) periodically monitor the existence of unneceSSaIY services and protocols running on their servers
    aIld network devices, (c) perform vulnerability assessments with administrative credentials and
    penetration tests on all SBA offices from a centrally managed location with a standardized reporting

                                                     I-I 

                                                                                                       Exhibit I
                                   U.S. Small Busiuess Administration
                                           Significant Deficiency


    mechanism that allows for trending, on a regularly scheduled basis in accordance with National
    Institute of Standards and Technology (NIST) guidance, (d) develop a more thorough approach to track
    and mitigate configuration management vulnerabilities identified during monthly scans, and (e)
    monitor security vulnerability repOlts for necessary or required configuration changes to their
    environment.
2. 	 Update the vulnerability assessment team (V AT) procedures, to include: (a) updating the VAT policies
     and procedures in accordance with NIST, (b) performing technical reviews of the results for critical
     issues that need immediate action and take timely corrective action, (c) executing procedures to
     monitor the completion of the patch management deployment across the SBA enterprise, and (d)
     prioritizing vulnerabilities as part of the ongoing continuous monitoring process.
3. 	 Prevent users from anonymously connecting unauthorized devices by developing and implementing
     procedures to ensure mandatory domain authentication for Internet Protocol (IP) address issuance.
4. 	 Ensure users' access rights are authorized prior to gaining access to financial systems.
5. 	 Fully implement the SBA entity wide incident management and response program and ensure that
     procedures are enforced.
6. 	 Ensure that information systems hosted by third parties comply with SBA policy and NIST guidance.
7. 	 Develop and implement procedures for user access reviews to ensure that proper access rights are set
     for financial subsystems.
8. 	 Oversee the review and validation of financial system accounts on a quarterly basis.
9. 	 Implement a process to monitor the audit logs of all financial applications on a regular basis.

Segregation ofDuties

The primary focus of an organization's segregation of duties controls is to provide reasonable assurance
that incompatible duties are effectively segregated. Witho.ut such controls, there is a risk that unauthorized
changes could be implemented into the IT environment, and users may have access that is inappropriate for
their duties. As a result, the confidentiality, integrity, and availability of financial data are at risk of
possible loss, modification, or disclosure.
A summary of the segregation of duties control deficiencies we identified during the FY 2011 SBA
financial statement audit follows:

• 	 An authorized user had conflicting access rights in a key financial system.
• 	 Six users were authorized with rights as a database administrator (DBA) and system administrator to a
    financial application hosted by a SBA service provider.

Recommendations - Segregation of Duties:

We recommend the CIO coordinate with the Chief Financial Officer (CFO) to:

10. 	Restrict access to software program libraries based on the principle of least privilege, and implement
     compensating controls over actions where limited resources cause individuals to perfonn conflicting
     job functions.
                                                    1-2
                                                                                                   Exhibit I
                                   U.S. Small Business Administration
                                          Significant Deficiency


11. 	Ensure that DBA and system administrator access is restricted through role-based segregation of duties
     and managed through an effective audit log review process.

Security Management
An entity-wide information security management program is the foundation of a security control structure
and a reflection of senior management's commitment to addressing security risks. This security
management program should establish a framework and continuous cycle of activity for assessing risk,
developing and implementing effective security procedures, and monitorif,lg the effectiveness of these
procedures. During the FY 2011 SBA financial statement audit, we found that a mandatory training
program for IT security personnel has not been implemented.
Recommendations - Security Management:

We recommend the CIO:

12. 	Develop a comprehensive security education and training program for all IT security personnel and a
     method for monitoring the training program.

Software Configuration Management
The primary focus of an organization's software configuration management process is to control the
software changes made to networks and systems. Without such controls, there is a risk that security
features could be inadvertently, or deliberately, omitted or turned off, or that processing irregularities or
malicious code could be introduced into the IT environment.

A summary of the configuration management deficiencies we identified during the FY 20 II SBA financial
statement audit follows:

• 	 The configuration management process is not centralized, and the Enterprise Change Control Board
    governance processes are not fully implemented across SBA.
• 	 SBA pers0lll1el could not provide sufficient evidence to support software change authorizations for one
    financial system.
• 	 For one financial subsystem, loan charge-off software changes were not tested before being moved to
    production, which impacted the SBA's compliance with the Debt Collection Improvement Act of 1996
    (DCIA). Note that these issues were reported as a noncompliance with the DCIA in the Compliance
    and Other Matters section of our audit report.

Recommendations - Software Configuration Management:

We recommend the CIO:

13. 	Enforce an organization-wide configuration management process, to include policies and procedures
     for maintaining documentation that supports testing and approvals of software changes.

We recommend the CIO coordinate with the CFO to:


                                                    1-3 

                                                                                                    Exhibit I
                                   U.S. Small Business Administration
                                            Significant Deficiency


14. 	Implement configuration management policies and procedures for document retention to include
     supporting evidence to validate the authorization of operating system changes.

Contingency Planning
The focus of an organization's contingency plmming progrrun should provide reasonable assurance that
infonnation resources m·e protected and the risk of unplrumed interruptions is minimized. Without such
controls, there is a risk that data may be lost or that critical operations may not resume in a timely manner.

A summary of the contingency planning weaknesses we identified during the FY 2011 SBA financial
statement audit follows:

• 	 Backup tapes necessary to restore system operations are not consistently rotated off-site for fonr of the
    seven systems we reviewed.
• 	 Comprehensive contingency and disaster recovery plans have not been developed, anthorized, nor
    tested for three of the seven systems reviewed. Additionally, we noted that two financial systems and
    the Headquarters (HQ) Continuity of Operations Plan (COOP) were in place; however, the plans were
    not tested on a semiannual hasis as prescribed by SBA policy.

Recommendations - Contingency Planning: 


We recommend the CIO: 


1-5. Enforce eXisting SBA policies to rotate backups off-site. 


We recommend the CIO coordinate with the CFO to: 


16. 	Create, implement, and test system specific and the HQ COOP. 





                                                     1-4 

                                                                                                     Exhibit II
                                 U.S. Small Busiuess Admiuistration
                               Status of Prior Year Significant Deficiency


Fiscal Year 2010 Finding                               Fiscal Year 2011 Status of Finding

Improvement Needed in Information Technology (IT)      During our review of SBA's IT general and application
Security Controls                                      controls, we noted some improvements made to
                                                       address prior year findings. However, control
                                                       deficiencies continue to exist.

                                                       Therefore, in Fiscal Year (FY) 20 11, the issue is again
                                                       presented in Exhibit l. The issue was modified to
                                                       reflect current year operations, and we continue to
                                                       report a significant deficiency in internal controls as it
                                                       relates to IT systems and the associated impact on the
                                                       consolidated financial statements.




                                                    II-I 

                                                                                                    Exhibit III
                                    U.S. Small Business Administratiou
                                     Status of Prior Year Noncompliance


Fiscal Year 2010 Fiudiug                                 Fiscal Year 2011 Status of Finding

Debt Collection Improvement Act of1996 (DCJA)            During our review over SBA's compliance with the
                                                         DCJA, we noted improvements made in SBA's
During our Fiscal Year (FY) 2010 audit, we noted the     Treasury cross-servicing refelTaI process. However,
agency was noncompliant with the DCJA. The               during FY 20 II, we noted instances of noncompliance
noncompliance was due to instances where SBA did         related to timely referrals of loan charge-offs to
not refer a substantial number of charged-off disaster   Treasury for offset and cross-servicing.
loans to Treasury for cross-servicing.
                                                         Therefore, in FY 20 ll, the issue is again presented in
                                                         the Compliance and Other Matters section of our
                                                         Independent Auditors' Report.




                                                     Ill-I
                                                                                         Exhibit IV




CFO Response to Draft Audit Report on FY 2011 Financial Statements


DATE:           November 14, 2011

TO:            John Needham, Assistant IG for Auditing

FROM:           Jonathan Carver, Chief Financial Officer

SUBJECT:        Draft Audit Report on FY 2011 Financial State

Th" Small Business Administration is in receipt of the draft Independent Audttors' Report from
KPMG that includes the audnor's opinion on the financial statements and its review of the
Agency's intemal'control over financial reporting and compliance with laws and regUlations. The
independent audit of the Agency's fin'ancial statements and related processes is a core
component of SBA's financial management program.

We are delighted that the SBA has again received an unqualified audit opinion from the
independent auditor with no reported material weaknesses. We believe these results accurately
reflect the quaHty of the Agency's financial statements and our improved accounting, budgeting
and reporting processes. As you know, the SBA has worked hard in past years to address the
findings from our independent auditors. Our core financial reporting data and processes have
improved substantially, and we are proud that the results of our efforts have been confirmed by
the independent auditor.

The audit report includes a continuing significant deficiency in SBA's information technology
controls. As the auditor noted in its report on the 2011 financial statements, the SBA
implemented corrective action this year to substantially remediate 10 of the 20 prior year IT
control findings. The auditor, however, identified 8 new IT findings this year. The SBA will
continue to improve the Agency's IT security during the upcoming fiscal year. The SBA will
continue to track, monitor, and aggressively mitigate vulnerabilities in all Agency systems.
Furthenmore, the SBA will continue its work to clarify and strengthen detailed procedures required
to ensure security access controls are in place to protect SBA data from unauthorized
modification, disclosure, and loss.

The auditor reporied again this year that SBA Is not compliant with the Debt Collection
Improvement Act of 1996 in the non referral of delinquent and charged off loans to the
Department of the Treasury for its tax refund offset and collection programs. Although the SBA
made improvements to correct systemic errors identified last year, the auditor again found
instances of charged off Disaster loans and eligible Business loan co-borrowers and guarantors
that were not referred to Treasury. Research by SBA identified the'systemic issues that caused
this finding and they were rectified this year. In addition, the SBA is currently migrating its
Treasury referral system to a new platfonm in FY 2012.

 During the audit, the auditor identified a potential non compliance with Federal Acquisition
 Regulation requirements for document retention. The SBA had previously recognized the need
 for improvement to its acquisition process and has taken action to reorganize and improve it~
 processes conceming the acquisition of goods and services. Furthermore, procurement actions
 during the current year have been conducted in accordance with FAR requirements including file
 documentation, and the SBA is now working to review and fully document prior year procurement
 files.

 We appreciate all of your efforts and those of your colleagues in the Office of the Inspector
 General as well as those of KPMG. The Independent audit process continues to provide us with
 new insights and valuable recommendations that will further enhance SBA's financial
management practices, We continue to be committed to excellence in finanei",1 management and
look forward to making more progress in the coming year.




                                                  2

